<html>
<title> - IMPROVING THE EFFECTIVENESS OF THE FEDERAL SURFACE TRANSPORTATION SAFETY GRANT PROGRAMS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
   IMPROVING THE EFFECTIVENESS OF THE FEDERAL SURFACE TRANSPORTATION 
                         SAFETY GRANT PROGRAMS

=======================================================================

                                (113-50)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 28, 2014

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
86-439                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="593e2936193a2c2a2d313c3529773a363477">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,      Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina
VACANCY

                                  (ii)

  
?

                  Subcommittee on Highways and Transit

                  THOMAS E. PETRI, Wisconsin, Chairman

DON YOUNG, Alaska                    ELEANOR HOLMES NORTON, District of 
HOWARD COBLE, North Carolina         Columbia
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           MICHAEL E. CAPUANO, Massachusetts
SAM GRAVES, Missouri                 MICHAEL H. MICHAUD, Maine
SHELLEY MOORE CAPITO, West Virginia  GRACE F. NAPOLITANO, California
DUNCAN HUNTER, California            TIMOTHY J. WALZ, Minnesota
ERIC A. ``RICK'' CRAWFORD, Arkansas  STEVE COHEN, Tennessee
LOU BARLETTA, Pennsylvania           ALBIO SIRES, New Jersey
BLAKE FARENTHOLD, Texas              DONNA F. EDWARDS, Maryland
LARRY BUCSHON, Indiana               JANICE HAHN, California
BOB GIBBS, Ohio                      RICHARD M. NOLAN, Minnesota
RICHARD L. HANNA, New York           ANN KIRKPATRICK, Arizona
STEVE SOUTHERLAND, II, Florida       DINA TITUS, Nevada
REID J. RIBBLE, Wisconsin, Vice      SEAN PATRICK MALONEY, New York
Chair                                ELIZABETH H. ESTY, Connecticut
STEVE DAINES, Montana                LOIS FRANKEL, Florida
TOM RICE, South Carolina             CHERI BUSTOS, Illinois
MARKWAYNE MULLIN, Oklahoma           NICK J. RAHALL, II, West Virginia
ROGER WILLIAMS, Texas                  (Ex Officio)
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Hon. Christopher A. Hart, Vice Chairman, National Transportation 
  Safety Board...................................................     5
Douglas B. Danko, chairman, American Traffic Safety Services 
  Association....................................................     5
Thomas Fuller, sergeant, New York State Police, and president, 
  Commercial Vehicle Safety Alliance.............................     5
Kendell Poole, director, Tennessee Governor's Highway Safety 
  Office, and chairman, Governors Highway Safety Association.....     5
Peter F. Sweatman, Ph.D., director, University of Michigan 
  Transportation Research Institute, and chairman, Intelligent 
  Transportation Society of America..............................     5

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Thomas E. Petri, of Wisconsin...............................    39
Hon. Nick J. Rahall, II, of West Virginia........................    46
Hon. Elizabeth H. Esty, of Connecticut...........................    49

 PREPARED STATEMENTS AND ANSWERS TO QUESTIONS FOR THE RECORD SUBMITTED 
                              BY WITNESSES

Hon. Christopher A. Hart:

    Prepared statement...........................................    50
    Answers to questions for the record from the following 
      Delegate and Representatives:

        Hon. Eleanor Holmes Norton, of the District of Columbia..    64
        Hon. Jerrold Nadler, of New York.........................    65
        Hon. Elizabeth H. Esty, of Connecticut...................    66
Douglas B. Danko:

    Prepared statement...........................................    78
    Answers to questions for the record from Hon. Tom Rice, a 
      Representative in Congress from the State of South Carolina    83
Thomas Fuller:

    Prepared statement...........................................    85
    Answers to questions for the record from the following 
      Representatives:

        Hon. Duncan Hunter, of California........................    98
        Hon. Reid J. Ribble, of Wisconsin........................    99
        Hon. Jerrold Nadler, of New York.........................   102
Kendell Poole, prepared statement................................   105
Peter F. Sweatman, Ph.D., prepared statement.....................   113

                       SUBMISSIONS FOR THE RECORD

Hon. Eleanor Holmes Norton, a Delegate in Congress from the 
  District of Columbia, request to submit to the record the 
  following organizations' safety priorities and recommendations 
  to Congress:

    Owner-Operator Independent Drivers Association (OOIDA), Small 
      Business Trucking's Top Priorities for Reauthorization's 
      Motor Carrier Title........................................   118
    Advocates for Highway and Auto Safety (Advocates):

        Advocates letter from Jacqueline Gillan, president, and 
          Joan Claybrook, consumer cochair, to Hon. Bill Shuster, 
          a Representative in Congress from the State of 
          Pennsylvania, and Hon. Nick J. Rahall, II, a 
          Representative in Congress from the State of West 
          Virginia, January 27, 2014.............................   120
        Comments submitted in response to the Federal Highway 
          Administration notice requesting comments on the 
          materials related to the Comprehensive Truck Size and 
          Weight Limits Study, 78 Federal Register 76889, 
          December 19, 2013......................................   123
        ``2014 Roadmap of State Highway Safety Laws''............   152
    Jan Withers, president, Mothers Against Drunk Driving (MADD), 
      written testimony..........................................   208
    Stephen Owings, president and cofounder, Road Safe America, 
      written testimony..........................................   211
    Truck Safety Coalition, 2014 Truck Safety Issues Summary.....   215
Hon. Christopher A. Hart, Vice Chairman, National Transportation 
  Safety Board, responses to requests for information from the 
  following Delegate and Representative:

    Hon. Eleanor Holmes Norton, of the District of Columbia, 
      regarding distracted driving and graduated driver licensing 
      (GDL) in MAP-21............................................    16
    Hon. Janice Hahn, of California, regarding aging 
      infrastructure recommendations.............................    30
Hon. Thomas E. Petri, a Representative in Congress from the State 
  of Wisconsin, request to submit the following into the record:

    Peter J. Pantuso, president and chief executive officer, 
      American Bus Association, written testimony................    34
    Wayne Allard, vice president, Government Relations, American 
      Motorcyclist Association, letter to Hon. Thomas E. Petri, a 
      Representative in Congress from the State of Wisconsin, and 
      Hon. Eleanor Holmes Norton, a Delegate in Congress from the 
      District of Columbia, January 27, 2014.....................    36

                        ADDITIONS TO THE RECORD

The American Trucking Associations, Inc., written statement......   218
Letter to Hon. Bill Shuster, a Representative in Congress from 
  the State of Pennsylvania, and Hon. Nick J. Rahall, II, a 
  Representative in Congress from the State of West Virginia, 
  from the following members of the Truck Safety Coalition and 
  Federal Motor Carrier Safety Administration's Motor Carrier 
  Safety Advisory Committee: Jane Mathis, board member, Parents 
  Against Tired Truckers; Jennifer Tierney, board member, 
  Citizens for Reliable and Safe Highways; and John Lannen, 
  executive director, Truck Safety Coalition; February 10, 2014..   224

[GRAPHIC] [TIFF OMITTED] T6439.001

[GRAPHIC] [TIFF OMITTED] T6439.002

[GRAPHIC] [TIFF OMITTED] T6439.003

[GRAPHIC] [TIFF OMITTED] T6439.004



   IMPROVING THE EFFECTIVENESS OF THE FEDERAL SURFACE TRANSPORTATION 
                         SAFETY GRANT PROGRAMS

                              ----------                              


                       TUESDAY, JANUARY 28, 2014

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Thomas E. Petri 
(Chairman of the subcommittee) presiding.
    Mr. Petri. The subcommittee will come to order. Today's 
hearing will focus on how Congress can improve the 
effectiveness of the surface transportation safety grant 
programs.
    The current Federal surface transportation authorization, 
MAP-21, expires on September 30th of this year. As Congress 
begins work on drafting the successor to MAP-21, we must 
understand what the most effective and innovative safety 
projects and activities are, in order to improve the safety of 
the traveling public.
    In 2012, 33,561 fatalities occurred on our Nation's 
highways, according to the National Highway Traffic Safety 
Administration. Highway fatalities in 2012 remain at historic 
lows, and match levels not seen since 1950. While these safety 
trends are encouraging, much more can be done to further reduce 
highway fatalities and crashes.
    Federal surface transportation safety grant program 
provides States with resources to target their specific safety 
issues. Each State faces unique safety challenges that demand a 
data-driven, performance-based safety approach. It is important 
to give States the flexibility they need to address their 
unique highway safety challenges. But at the same time, States 
must be held accountable for how they are spending their 
limited Federal resources. And that is why MAP-21 requires 
States to include safety performance targets into their annual 
highway safety plans.
    One of the largest Federal safety programs is the Highway 
Safety Improvement Program, which apportions over $2 billion 
among the States to address highway safety infrastructure 
challenges. Each State is required to have a strategic highway 
safety plan that identifies safety problems through data 
analysis and determine the appropriate safety countermeasures. 
Examples of how this funding can be used include improving a 
dangerous section of highway by installing guardrails and 
rumble strips, or improving highway design to make an 
intersection safer for motorists and pedestrians.
    States also receive Federal-aid funding to address highway 
driver behavior issues through the State and community highways 
safety grants, otherwise known as section 402 grants. Each 
State is required to have an annual highway safety plan that 
identifies their unique driver behavior issues, and determine 
the appropriate safety countermeasures. Example of how this 
funding can be used include drunk driving and seatbelt 
enforcement, or community outreach and education activities.
    Commercial motor vehicle enforcement is another important 
Federal safety priority. States receive funding from the motor 
carrier safety assistance program, which provides resources for 
States to enforce Federal commercial motor vehicle regulations. 
Funding is targeted on investments that promote safe commercial 
vehicle transportation of property, passengers, and hazardous 
materials. Through motor carrier and driver data systems, 
States are able to target the most unsafe carriers and drivers 
for enforcement. States must set program goals and meet 
performance benchmarks in order to be eligible for program 
funding.
    Technology is one area that can help States improve the 
effectiveness of their Federal surface transportation safety 
grants. States can further adopt and deploy innovative 
technologies that reduce highway fatalities and crashes, and 
help enforcement officials target the most unsafe drivers.
    As vehicles become more autonomous and connected, 
intelligent transportation infrastructure assistance will give 
States more ways to create a safer traveling experience for 
Americans. Such systems could warn drivers of dangerous road 
conditions ahead, or assist the driver in making safer driving 
decisions.
    So, I trust today's hearing will provide our subcommittee 
members with insight into the Federal surface transportation 
safety grant programs, and how we can better leverage our 
limited Federal resources to reduce fatalities and injuries on 
our Nation's roads.
    I look forward to hearing from our witnesses this morning, 
and now would recognize our senior Democrat, Eleanor Holmes 
Norton, for any statement she would like to make.
    Ms. Norton. Thank you very much, Chairman Petri, for 
holding this very important hearing, and making it a hearing on 
safety, as the second hearing in our effort to move toward a 
reauthorization of the surface transportation bill. I think 
this shows just the right focus, as we seek to reauthorize MAP-
21.
    Last year, more than 3,000 people were killed, and over--
and more than 2.3 million people were injured in accidents on 
our roads. Automobile crashes remain one of the leading causes 
of death for Americans between the ages of 5 and 34. Every one 
of these lives lost is a tragic reminder that we can and must 
do more to enhance safety on our roads.
    For the past decade, the Federal Government has made 
significant investments in highway safety, and has directed 
Federal funds into those activities that, when implemented by 
the States, result in maximum accident prevention and 
reduction. Since 2005, we have witnessed an impressive 23-
percent drop in highway fatalities.
    Unfortunately, in 2012, fatalities were higher than 2011, 
reversing this trend of safety improvement. I am curious to 
discover what accounts for that, if it is just a blip or some 
other reason. The next reauthorization provides an opportunity 
to boost our investment in safety, to target those activities 
that save lives and prevent injuries, and to promote safety in 
innovative ways, such as through the assistance of exciting new 
technologies.
    Truck safety is another area where more can and must be 
done to improve safety, both for travelers who share highways 
with trucks, and for the men and women who drive trucks. These 
individuals work in unimaginably difficult operating 
environments with highway congestion, heavy demands from 
shippers and receivers, and with incredibly tight economic 
margins in which to try to earn a living. I recently became 
aware of many--that many of the drivers new to the industry do 
not receive sufficient training before they are expected to 
drive. I am very interested in the ways the Federal Government 
might improve safety through the setting of standards, or 
addressing basic working conditions in the industry, which I 
believe will result in significant safety gains. And we can 
achieve this without expending many more Federal dollars.
    Highway safety is not the only responsibility of this 
subcommittee. Americans took more than 10 billion--that is with 
a B--trips on transit last year alone. While public 
transportation is a relatively safe mode of travel, when 
accidents occur the results are often tragic. Delays or 
suspensions of service as a result of an accident affect all 
riders in the system.
    Right now, in the District of Columbia--right here, in the 
District of Columbia, excuse me--the 2009 Metro crash at the 
Fort Totten rail station killed 9 people, and 52 others were 
transported to local hospitals. More recently, accidents on 
transit systems in Chicago and San Francisco, and the Metro-
North Railroad in Connecticut and New York are stark reminders 
that we must remain vigilant about safety in all our transit 
rail systems--including our rail systems.
    MAP-21 provided the Federal Government with a long overdue 
authority and responsibility to oversee the safety of transit 
systems that receive Federal grants. This is perhaps the most 
important safety regulation passed by the Federal Government in 
decades, and it occurred only after the Metro crash in 2009, 
when we learned that, of the modes of transportation, only 
Metrorail was without any Federal regulations whatsoever.
    And we will hear testimony this morning from the National 
Transportation Safety Board first recommended--that first 
recommended that the Federal Government be given authority to 
regulate the safety of transit systems way back in 1981. I look 
forward to hearing from Vice Chairman Hart on recent progress 
that has been made on transit safety at WMATA and other systems 
across the United States.
    Let me close by saying that safety is not only about lives 
lost, as important as that is. And that should always be at the 
front of our minds. Improving safety also affects mobility. 
According to the AAA, in urban areas the total cost of traffic 
crashes, nearly $300 billion--that is another B--per year, is 
over three times the cost of congestion. The investments we 
make to save lives also ensure that we truly keep America 
moving forward.
    I look forward to hearing testimony from today's witnesses.
    I would like to note that, unfortunately, there are many 
key stakeholders who were not invited to testify today. I asked 
for their input and would like to ask unanimous consent that 
their safety priorities and recommendations to Congress be a 
part of the record. The OOIDA, Teamsters Advocates for Highway 
and Auto Safety, MADD--Mothers Against Drunk Driving, and Road 
Safe America would like statements of their safety priorities 
submitted for the record, Mr. Chairman.
    [No response.]
    Mr. Petri. Without objection, so ordered.
    [Please refer to pages 118-217 for the information 
submitted for the record by Hon. Norton.]
    Mr. Petri. And the ranking member of the full committee, 
Mr. Rahall from West Virginia, is recognized.
    Mr. Rahall. Thank you, Mr. Chairman. I appreciate your 
holding this important hearing. Ensuring the safety of users of 
the transportation network is a core function of the Committee 
on Transportation and Infrastructure. Further preventing the 
tragic loss of life and injuries that occur every day on our 
roads will be a top priority of the committee in the next 
surface transportation authorization bill.
    One area that has been a priority for me is addressing the 
unique challenges with railway-highway grade crossings. Last 
year there were nearly 2,000 incidents at grade crossings, 
resulting in 233 deaths and 921 injuries. While the number of 
crashes at grade crossings is down 82 percent since 1980, 
nearly all crashes at grade crossings are preventable.
    The primary means of Federal investment in grade crossing 
safety is the Section 130 Railway-Highway Crossings Program. 
This program provides Federal funds to States to make grade 
crossing safety enhancements. According to the Federal Railroad 
Administration, the section 130 program--and I quote--``has 
helped prevent over 10,500 fatalities and 51,000 nonfatal 
injuries.'' MAP-21 preserved the budgetary set-aside for this 
important safety program, which provides States $221 million 
annually to assist in making grade crossing safety 
improvements. Without this dedicated funding, grade crossing 
needs would fare poorly in competition with other highway 
investment needs.
    So, I am pleased to report that, in recent years, States 
have been obligating significantly more funds towards safety 
improvements at grade crossings. Since the dedicated set-aside 
was created under the Highway Safety Improvement Program, 
States have obligated nearly 75 percent of their available 
funding. This is up from only 26 percent in fiscal year 2006. 
Continuing to provide dedicated funding towards this important 
safety program will mean more injuries averted and more lives 
saved at the Nation's more than 212,000 grade crossings.
    Once again, Mr. Chairman, I thank you and Ranking Member 
Eleanor Norton, for holding this important hearing, and I look 
forward to working with you to reauthorize the surface 
transportation programs and to improve--continue to improve the 
safety of our Nation's highways. Thank you.
    Mr. Petri. Thank you. And statements by other Members will 
be made a part of this record.
    Welcome to the witnesses today. The panel consists of the 
Honorable Christopher A. Hart, Vice Chairman of the National 
Transportation Safety Board; Douglas B. Danko, chairman, 
American Traffic Safety Services Association; Sergeant Thomas 
Fuller, New York State Police, on behalf of the Commercial 
Vehicle Safety Alliance; Mr. Kendell Poole, director, Tennessee 
Governor's Highway Safety Office on behalf of the Governors 
Highway Safety Association; and Dr. Peter Sweatman, who is the 
director, University of Michigan Transportation Research 
Institute, on behalf of the Intelligent Transportation Society 
of America.
    Welcome to all of you. Thank you for the effort that went 
into the prepared statement by you and your organizations. And 
we would invite you to make your best effort to summarize those 
statements in about 5 minutes, beginning with Mr. Hart.

TESTIMONY OF HON. CHRISTOPHER A. HART, VICE CHAIRMAN, NATIONAL 
   TRANSPORTATION SAFETY BOARD; DOUGLAS B. DANKO, CHAIRMAN, 
 AMERICAN TRAFFIC SAFETY SERVICES ASSOCIATION; THOMAS FULLER, 
  SERGEANT, NEW YORK STATE POLICE, AND PRESIDENT, COMMERCIAL 
  VEHICLE SAFETY ALLIANCE; KENDELL POOLE, DIRECTOR, TENNESSEE 
   GOVERNOR'S HIGHWAY SAFETY OFFICE, AND CHAIRMAN, GOVERNORS 
   HIGHWAY SAFETY ASSOCIATION; AND PETER F. SWEATMAN, PH.D., 
   DIRECTOR, UNIVERSITY OF MICHIGAN TRANSPORTATION RESEARCH 
INSTITUTE, AND CHAIRMAN, INTELLIGENT TRANSPORTATION SOCIETY OF 
                            AMERICA

    Mr. Hart. Thank you. Good morning, Chairman Petri and 
Ranking Member Norton, and members of the subcommittee. I am 
Christopher Hart, Vice Chairman of the National Transportation 
Safety Board. Thank you for inviting the NTSB to testify today 
to help inform this process with lessons we have learned from 
investigating crashes.
    During the past year, the NTSB's highway and rail divisions 
have been busy investigating several accidents across the 
country. On our highways we investigated several truck and 
motorcoach accidents, resulting in 25 deaths and more than 85 
injuries. Our teams continue to investigate the Skagit River 
Bridge collapse on Interstate 5 in Washington State, and the 
highway rail grade crossing accident in Baltimore County, 
Maryland, that resulted in a train derailment followed by a 
major explosion.
    In rail, Metro-North had four major accidents since May of 
2013. These events resulted in 5 fatalities and 135 injuries. 
Also, the Chicago Transit Authority and Bay Area Rapid Transit 
had accidents this past fall, and we continue to investigate 
those accidents.
    We also continue to monitor Washington Metro's 
implementation of its recommendations from the 2009 Fort Totten 
accident that was mentioned previously. Just last week, WMATA 
completed another recommendation so that 8 of those 
recommendations out of 18 remain open. WMATA indicates that it 
will implement those remaining eight recommendations.
    The vast majority of transportation fatalities, however, 
occur on our Nation's highways, with more than 30,000 
fatalities every year. Much more can be done to improve safety 
in areas of impaired driving, distracted driving, fatigued 
driving, and motor carrier oversight. Fortunately, the 
technologies to help drivers avoid crashes are improving every 
day. For example, NHTSA estimates that connected vehicle 
technology can reduce the number of nonimpaired multivehicle 
collisions by as much as 80 percent.
    To limit the effects of alcohol impairment and fatigue, 
systems are being developed to prevent alcohol-impaired drivers 
from starting their vehicles, and to detect if a driver is 
becoming too drowsy to drive. Although some of these 
technologies are still in development, technology such as 
forward collision warning and avoidance systems are available 
now, but need to be more widely deployed in the motor vehicle 
fleet, as standard equipment, rather than as an option only for 
those who can afford it.
    Unfortunately, the crash scenes that we see usually are not 
new to us. The same contributing factors present themselves 
over and over again. Our job is to help improve safety, and we 
make recommendations from each accident to help accomplish this 
goal. Many times our recommendations are challenging and take 
time, effort, and will to implement. But, as we have seen, 
safety can be significantly improved with advancements such as 
airbags and seatbelts. Years ago, these were hard-fought 
accomplishments. But today, they are standard equipment on 
every new car we buy.
    The traveling public demands safety, and policymakers have 
made important strides in promoting it. You can continue to do 
so through your work on the next surface reauthorization bill. 
I encourage you to keep the bar high regarding safety, to 
ensure that together we can further reduce the numbers of 
transportation fatalities and injuries.
    The NTSB does not need to investigate another accident to 
relearn the same lessons. We have the facts and we have the 
knowledge. What is needed now is the will.
    This concludes my testimony, and I am prepared to answer 
your questions. Thanks again for having the NTSB testify today.
    Mr. Petri. Thank you. Mr. Danko.
    Mr. Danko. Chairman Petri, Ranking Member Norton, and 
members of the subcommittee, thank you for the opportunity to 
testify today on behalf of the American Traffic Safety Services 
Association, or ATSSA. My name is Douglas Danko, and I am 
ATSSA's chairman and recently retired president of Protection 
Services, Inc. ATSSA is an international trade association 
which represents 1,600 members who manufacture, distribute, or 
install roadway safety infrastructure devices.
    We all recognize the current condition of the Federal 
Highway Trust Fund. In order to make progress on reducing 
roadway fatalities, the fiscal situation of the Highway Trust 
Fund must be addressed and made sustainable. ATSSA is committed 
to working with Congress to find additional revenue options 
that will invest in our infrastructure, save lives, and create 
jobs. And all funding options should be on the table.
    MAP-21 made great strides in making roads safer. However, 
more must be accomplished. The Highway Safety Improvement 
Program, or HSIP, was increased to $2.4 billion annually, which 
represents a commitment by Congress to safety. Tragically, in 
2012, more than 33,000 people still died on America's roads. 
Even though the loss of a loved one cannot be truly captured in 
dollar figures, the National Highway Traffic Safety 
Administration does value a statistical life at $9.1 million. 
The good news is that since the HSIP was created, there has 
been a dramatic decrease in roadway deaths, and we must 
continue this focus on safety.
    Projects that are eligible under HSIP generally have been 
very high return on investment. States are finding that a small 
infrastructure investment can yield large reduction in crashes. 
According to a June 2010 study conducted by SAIC, the HSIP 
yields a benefit cost ratio of 42-to-1. The study notes that 
for every $1 million increase in safety obligations, roadway 
fatalities were annually reduced by seven. ATSSA recommends 
that the HSIP be continued as a core program, and that the 
investment in that program be increased to $3 billion annually, 
or 10 percent of the overall Federal-aid highway program, 
whichever is greater.
    In the next reauthorization, Congress should eliminate the 
States' ability to transfer funds from the HSIP to other core 
highway programs. It is true that States need degrees of 
flexibility when focusing on the individual project needs. 
However, with more than 33,000 fatalities occurring each and 
every year, taking funds away from the core safety 
infrastructure program seems counterproductive.
    Also, when MAP-21 was crafted, the legislative language--
but is not limited to--was added before the list of eligible 
HSIP activities. Unfortunately, this language has been 
interpreted to mean that any safety project, infrastructure or 
not, may be eligible under the HSIP, thus diluting the core 
purpose of the program.
    In the next reauthorization, ATSSA recommends focusing the 
language to reflect more on additional safety infrastructure 
devices, instead of the open-ended interpretation currently 
used by the Federal Highway Administration. Currently, local 
agencies often do not have the resources necessary to address 
their safety concerns. According to the FHWA, the fatality rate 
on rural roads is two-and-a-half times greater than on urban 
roads. The next reauthorization should include language to help 
streamline the process to allow local governments to utilize 
the HSIP funds and the technical expertise that State DOTs have 
in order to make local and rural roads as safe as possible.
    In addition, older drivers are an important aspect of 
roadway safety. Because there is a clear need for older driver 
safety infrastructure solutions into the future, the next 
reauthorization should include language that assists States and 
local transportation departments in planning for and 
implementing cost-effective safety infrastructure solutions.
    Finally, work zone safety should continue to be an area of 
focus. And the next reauthorization should continue to fund the 
Work Zone Safety Grant and expand its eligible activities. We 
must protect our workers who are exposed to dangerous roadway 
conditions, such as heavy traffic and speeding, while ensuring 
that road users, including pedestrians, have safe passage 
through those work zones.
    On behalf of ATSSA, I thank you for this opportunity to 
testify about America's safety infrastructure needs, and how we 
all can move our Nation towards zero deaths on our roads. Thank 
you.
    Mr. Petri. Thank you. Sergeant Fuller.
    Mr. Fuller. Thank you, Mr. Chairman, Ranking Member, 
members of the subcommittee. Thank you for holding this 
important hearing, and for inviting the Commercial Vehicle 
Safety Alliance to testify. My name is Tom Fuller. I am a 
sergeant with the New York State Police, and the current 
president of the Commercial Vehicle Safety Alliance.
    The Alliance represents State, provincial, and Federal 
commercial vehicle safety officials responsible for enforcing 
the safety regulations in the United States, Canada, and 
Mexico. We work to improve commercial vehicle safety and 
security by bringing safety enforcement agencies together, 
along with industry representatives, to solve problems and, 
more importantly, to save lives. I oversee the commercial 
vehicle enforcement unit for the New York State Police, and I 
am responsible for administrating the State's grant funds under 
the Motor Carrier Safety Assistance Program.
    Effective Federal grant programs like MCSAP are critical to 
ensuring safety on our Nation's highways. The Federal 
Government provides funds through the MCSAP to the States for 
the enforcement of this country's motor carrier safety 
regulations. The States use these funds for training, 
enforcement activities, purchase equipment specific to this 
idea, update software, and, more important, to conduct 
educational campaigns about commercial motor vehicle safety.
    The MCSAP is effective in reducing crashes and saving 
lives. However, there are a number of improvements that could 
be made to streamline the program, improve efficiency, and make 
better use of limited resources. MCSAP is plagued by 
inconsistencies and red tape. To address these challenges, CVSA 
has developed a series of recommendations, which are more fully 
outlined in our written testimony.
    There are several administrative changes that, if made, 
would dramatically improve MCSAP efficiency. First, provide 
States with additional flexibility, so we can fully leverage 
resources and improve program efficiency. Rather than provide a 
prescriptive requirement, FMCSA should focus on outlining 
program parameters and goals, and then allow the States to 
develop solutions that are unique to our States that fit the 
program.
    We recommend streamlining the commercial vehicle safety 
plan process to eliminate unnecessary administrative burdens on 
States, while improving the effectiveness of these plans. There 
are programs by the Federal Highway Administration and the 
National Highway Traffic Safety Administration from which FMCSA 
can borrow.
    In addition, moving to a longer term CVSP process--let's 
say 3 to 5 years--will reduce administrative burdens on the 
States and FMCSA, freeing up resources on both the States and 
the Federal Government. States also need more consistency, 
funding needs to be predictable and steady, and the grant 
application review process should be standard from State to 
State and year to year. FMCSA should have clear deadlines for 
when they have to meet their obligations to States, just like 
the States must do for the Federal Government.
    In addition to the process changes, there are policy 
changes that are necessary to maximize effectiveness and 
efficiency within MCSAP. We need to eliminate, as much as 
possible, the inconsistencies within the program, which only 
lead to confusion and draw much-needed resources away from the 
program activities.
    Enforcement and industry alike must be able to understand 
the regulations. Unfortunately, however, over time, additional 
regulatory authority, coupled with changes to the industry and 
technology advancements, results in inconsistent, outdated, and 
redundant regulatory language. To address this, CVSA supports 
requiring FMCSA, in collaboration with stakeholders, conduct a 
full review of the regulations every 5 years, geared towards 
reducing, enhancing, and streamlining the regulations, 
eliminating outdated and duplicative regulations, and 
clarifying those that need adjustment.
    This requirement would also help reduce some of the 
disconnects that exist between the regulations and the 
regulatory guidance interpretations and policy memos issued by 
FMCSA. Furthermore, requiring that FMCSA publish all petitions 
for changes to regulations in the Federal Register, as they do 
for exemptions, would help provide clarity for both industry 
and enforcement, and promote greater collaboration.
    Next, I would like to address the legislative exemptions. 
First and foremost, safety regulations exist to protect those 
on our Nation's roadways, and exemptions undermine safety. 
Furthermore, every new exemption is an opportunity for 
confusion and inconsistency in enforcement, diverting scarce 
resources from our other activities and undermining program 
effectiveness. CVSA opposes any and all legislative exemptions 
or, at the very least, when being considered exemptions should 
be required to include a safety clause which would provide for 
monitoring and a mechanism to eliminate the exemption, should 
it negatively impact safety.
    Further, CVSA supports removing crashes involving exempted 
industries from the criteria used to determine grant awards to 
States. Simply put, we should not be punished for segments of 
the industry that we do not have authority over.
    Finally, while the focus of this hearing is on improving 
efficiencies, I believe it is necessary to say a word about the 
need for adequate and reliable funding. New and expanded 
responsibilities mean improvements in safety, but only in as 
much as the States are able to effectively implement those 
policies. It is critical that Congress and FMCSA ensure that 
all new programs are created with funding that is provided to 
the States, avoiding any unfunded mandates. Otherwise, 
effectiveness suffers.
    We recognize that the issue of funding for the Federal 
transportation program is a complicated one with no easy 
solutions. CVSA strongly supports the ongoing efforts to 
identify sustainable, long-term revenue sources to address the 
Highway Trust Fund solvency in order to ensure stability for 
MCSAP.
    In closing, I would like to reiterate that, despite the 
challenges, MCSAP works well. We have seen a steady reduction 
in commercial motor vehicle crashes and fatalities since 
inception. CVSA has a good working relationship with FMCSA and 
we work together as much as possible to address this issue. The 
unfortunate fact is that there are still significant challenges 
that are hampering program efficiency and effectiveness. There 
are a number of options available for improving efficiency and 
reducing redundancy in the system that will allow for better 
leveraging of Federal funds.
    We look forward to working with this committee and FMCSA 
develop and implement creative solutions to continue to improve 
our Nation's motor vehicle safety program. Thank you.
    Mr. Petri. Thank you. Mr. Poole.
    Mr. Poole. I am Kendell Poole, chairman of the Governors 
Highway Safety Association. I would like to thank the 
subcommittee for the opportunity to testify here today. GHSA 
represents State highway safety offices in all 50 States, the 
District of Columbia, and United States territories. GHSA 
members administer the behavioral highway safety grant programs 
under MAP-21.
    Although we have made some significant progress, there were 
still more than 33,000 traffic-related fatalities and more than 
2 million injuries in 2012. In addition to the mental and 
emotional toll on families, crashes also cost the Nation an 
estimated $230 billion annually to address this problem. The 
Federal Government must make the reduction of highway 
fatalities and injuries a national priority, and play a strong 
role in developing highway safety policies and programs.
    As Congress considers reauthorization for highway safety 
programs, GHSA recommends enacting a long-term reauthorization 
to help States develop comprehensive strategic plans and 
undertake needed multiyear projects such as data and traffic 
record systems improvements. This reauthorization should also 
contain provisions to reduce the administrative burden placed 
on States required to prepare the grant application and manage 
the program and alter the current maintenance of effort 
requirements to provide relief to economically distressed 
States. States should not be required to use outdated data in 
developing their highway safety plans. They should have the 
option of using the most recent State or Federal data, rather 
than being required to use FARS data, which is often a year or 
more behind other sources.
    Congress should restructure the Section 405 National 
Priority Safety Program to make significant changes to tiers 
addressing impaired driving, motorcyclist safety, distracted 
driving, and teen driving. These include allowing States that 
grant rare exemptions to ignition interlock requirements to 
qualify for impaired driving funds, simplifying the distracted 
driving program to reward States that enforce primary texting 
bans for all drivers and complete cell phone bans for novice 
drivers. The teen driving incentive needs to be restructured to 
reward States with strong teen driving laws.
    States are in need of additional section 402 money to 
address issues such as excessive speeding, drugged driving, 
distracted driving, and other emerging safety challenges. To 
increase the support of the section 402 program, Congress 
should allow NHTSA to transfer a portion of the unobligated 
section 405 money into section 402.
    MAP-21 authorizes a cooperative research and evaluation 
program of $2.5 million annually. Utilizing 402 funds, the 
program is administered by NHTSA, but managed jointly by NHTSA 
and GHSA. Despite previous efforts, only a small portion of 
behavioral highway safety countermeasures have been adequately 
researched. Without sufficient research to indicate what works 
and what doesn't, States may be forced to implement programs 
without an appropriate research basis. To address this, GHSA 
recommends that funding for behavioral research be supported, 
and the cooperative NHTSA-GHSA program continue.
    Finally, GHSA does not support sanctions, as we believe 
they are untargeted and counterproductive. States are already 
subject to seven safety-related sanctions, and evidence on 
their effectiveness is mixed. GHSA recommends an incentive-
based approach to encourage changes in State policies and 
programs.
    And finally, I would like to thank you for the opportunity 
to testify, and I will be happy to answer any questions.
    Mr. Petri. Thank you. Dr. Sweatman.
    Dr. Sweatman. Chairman Petri, Ranking Member Norton, 
members of the subcommittee, thank you for the opportunity to 
testify about Federal transportation safety grant programs, and 
how we can improve their effectiveness. I am honored to share 
my views, both as a recipient of Federal safety grants through 
the University of Michigan Transportation Research Institute, 
and on behalf of the Intelligent Transportation Society of 
America, which brings together the transportation and 
technology communities.
    We are looking forward to working with members of this 
subcommittee to pass a reauthorization bill that builds on the 
reforms in MAP-21, and that deploys innovative technologies for 
improving safety and for providing greater mobility to 
America's transportation users.
    Through Federal safety grant funding, vehicles, 
infrastructure, and driver behavior come together under 
powerful enabling technologies. The whole is much greater than 
the sum of the parts, serving the national interest.
    Several megatrends currently affect the way the safety 
systems are developed. The auto industry is increasing the pace 
of deployment of sensors. The burgeoning consumer electronics 
industry reduces costs for key enabling technologies. And 
advances in wireless communication revolutionize sensing 
between vehicles and infrastructure. These trends mean that a 
wider range of industry sectors need to be collaborating, and 
research needs to be carried out on a very large scale, under 
real-world operating conditions.
    The true goal is no less than crash prevention. Despite a 
long and meritorious history of vehicle and driver safety 
measures, we still bear the national burden of 33,000 
fatalities every year.
    Working collaboratively with stakeholders, the U.S. 
Department of Transportation is developing vehicle-to-vehicle 
and vehicle-to-infrastructure communications, known as 
Connected Vehicle Technology, to prevent vehicles from 
crashing. This innovative technology relies on the 
interference-free use of dedicated spectrum in the 5.9 
gigahertz band, which was set aside by the Federal 
Communications Commission. The National Highway Traffic Safety 
Administration estimates that a fully deployed Connected 
Vehicle Network could address 80 percent of all nonimpaired 
crash scenarios, an astounding figure representing thousands of 
lives saved.
    And it is not just cars talking to cars, but also trucks 
talking to cars and motorcycles, and even buses talking to 
pedestrians. At UMTRI, we are conducting the largest 
naturalistic test of Connected Vehicle Technology in the world 
in Ann Arbor, Michigan, the federally funded safety pilot model 
deployment. The data from the safety pilot are being used by 
NHTSA to determine the most effective path toward full-scale 
deployment of this life-saving technology. This is a truly 
revolutionary partnership, and a great example of what can 
happen when the Government works with private-sector 
innovators, researchers, and State and local agencies who 
manage the infrastructure to accomplish big things.
    This could not happen without Federal leadership shaping 
how such a system could operate, and establishing certain parts 
of its architecture. The safety pilot is an example of how 
Federal safety grants can be used to leverage State and local 
dollars and private-sector investment. The model deployment has 
had sufficient impact on Michigan institutions that plans were 
developed and funding identified to create a full regional 
deployment of connected vehicles in southeast Michigan.
    Recognizing connected, automated vehicles as a critical 
driver of economic growth, the State partnered with the 
University of Michigan to develop a new center devoted to the 
deployment of connected and automated systems, including a 
unique off-roadway test facility for automated vehicles. 
Manufacturers from all over the world are expected to use this 
facility to evaluate their technologies for on-road use.
    These and other innovations will be showcased from 
September 7 to 11 of this year in Detroit, during the 21st 
World Congress on Intelligent Transportation Systems. ITS 
America is proud to be staging this must-attend event for 
experiencing an unprecedented wave of innovation and mobility. 
Please come.
    Finally, today as ITS technologies reach far beyond safety, 
there are equally significant benefits for mobility, 
accessibility, energy efficiency, and the environment. 
Stronger, more timely coordination between Federal agencies is 
needed to recognize the transformational nature of the 
technology, and to protect essential enablers such as high-
performance wireless spectrum.
    Thank you again for the opportunity to testify, and I look 
forward to answering your questions.
    Mr. Petri. Thank you. Thank you all for your testimony. I 
have a couple questions, and I am sure other members of the 
panel do, as well.
    I think the first area that I wondered if, Mr. Poole, you 
could expand on a little bit, you indicated that--kind of 
speaking on behalf of the States, that you felt that more 
sanctions in terms of trying to force States to promote safety 
would not be as effective as focusing more on incentives.
    And this is--several of us have been active in aviation 
over the years, and this has been a debate, as to how to get 
highway safety and their--I mean aviation safety. And most of 
the experts in the field, as much communication--as open, 
analyzing problems, are much better than whenever there is a 
mistake punishing people, because no one really wants an 
accident, whether it is in the air or on land. But if you get 
punished when it occurs or you could be blamed for it, there is 
an effort to kind of cover up or there are incentives that are 
counterproductive, in terms of the bigger picture.
    And I don't know if that is what your thinking is on that, 
or if you could expand on why we shouldn't, you know, lean on 
the States harder, rather than encouraging them to use their 
own imagination and innovative instincts.
    Mr. Poole. All right, thank you, Mr. Chairman, and I will 
be glad to try to answer that.
    You know, we represent so many different States across the 
country that we have seen incentives and sanctions before in 
behavioral highway safety. And, historically, incentives have 
worked much better for the States. We have been able to save 
more lives, which is what we are about, with incentives. It 
gives the States more--a more broad range of creativity in how 
they implement those programs with incentives. So we support 
incentives over sanctions.
    Mr. Petri. Thank you. The--question for Dr. Sweatman. Do 
you have any particular suggestions that Congress might 
consider to make the intelligent transportation deployment 
program more effective in our next reauthorization bill? Or is 
legislative tweaking not the issue here?
    Dr. Sweatman. Thank you, Mr. Chairman. I think my message 
would be all about deployment, real deployment. So we have had 
many demonstrations, we have had a lot of research. We need 
deployment. And I think we will be considering that in terms of 
either city deployments or regional deployments of ITS.
    One of the exciting things about ITS is the ability to, for 
performance management of the transportation system, we haven't 
really been able to roll that out nationally in the past. But 
as we get ITS deployment, real deployment, we have the ability 
to collect the data we need to evaluate the benefits of various 
transportation projects. And we think there is a lot of cross-
cutting benefit for many different types of ITS technologies 
being deployed in the same environment, whether that is a city 
or whether that is a regional deployment. And that would 
include innovative pricing schemes along with integrated 
corridor management schemes and the sort of connected vehicle 
technologies that I already talked about.
    So, as we bring all of those technologies together, and we 
use the data that is being generated to manage the system 
better and understand the benefits, I think that is when we 
start to see real improvements. And we need more deployment.
    Mr. Petri. Thank you. Ms. Norton?
    Ms. Norton. Thank you very much, Mr. Chairman. And I 
appreciate all of the testimony. I found it, your written 
testimony and the testimony I was able to hear, very 
informative.
    Could I first go to truck safety standards? And, Sgt. 
Fuller, you indicated that States were being penalized for 
fatalities that occur, and parts of the industry, really, are 
exempt from regulation. Are you saying that industries exempt 
from regulation--the primary one that comes to mind is 
agriculture--are involved in a significant number of crashes? 
How significant is that number?
    Mr. Fuller. As you mention, the agriculture industry is 
exempt from a lot of the regulations. Is it a large amount of 
crashes? No. But as we all know, the Federal Government works 
off of consistent data. And no matter what happens, those 
crashes goes into the FARS data, it goes into the large truck 
causation study data. And that negatively affects the States, 
because our grant money is based upon a lot of that data that 
the Federal Government----
    Ms. Norton. So are you saying that since they are exempt, 
their accident rate should not be in the database?
    Mr. Fuller. Yes, I am.
    Ms. Norton. Could I ask Mr. Hart whether NTSB supports 
behind-the-wheel driving for entry-level drivers--training, I 
am sorry, behind-the-wheel training for entry-level truck 
drivers. Or do you feel that the current regulations are 
sufficient?
    Mr. Hart. Thank you for the question. We have made 
recommendations regarding training over the years. For a 
commercial driver's license, all you needed to do is pass the 
test. There is no regulated training requirement.
    For example, in an accident in which a schoolbus rear-ended 
another schoolbus, we recommended training regarding safe 
following distances.
    Ms. Norton. So, even then, even with those schoolbuses----
    Mr. Hart. Correct.
    Ms. Norton [continuing]. Behind-the-wheel training does not 
occur.
    Mr. Hart. Correct. In some school districts, adequate 
behind-the-wheel training does not occur.
    Ms. Norton. Even though they are trusted with the lives of 
children.
    Mr. Hart. Correct. We have made numerous recommendations 
regarding training over the years.
    Ms. Norton. Yes. I don't see how we can continue to put the 
data from agriculture into the State base and deny them funds, 
or impose other sanctions, while exempting--especially 
considering how sweeping is the exemption, for example, for 
agriculture.
    Let me go on to the testimony of Mr. Poole, who wants no 
additional safety-related sanctions. And your question, Mr. 
Poole, the effectiveness of the sanctions--now, of course, one 
can understand that, with respect to weak, or so-called soft 
sanctions. But not--but, of course, that doesn't involve the 
kind of sanctions such as withholding program funding that 
tends to get State attention.
    What evidence is there that in the case of strong or hard 
standards, where, for example, highway construction funds could 
be withheld, that when those funds are taken away, that they 
would not help a State to remain in compliance, or the very 
threat of those funds taken away?
    Mr. Poole. Thank you. There are many evidences across the 
country where we feel like, as members of GHSA, that incentives 
simply work better than the sanctions. And the numbers are 
there to bear that out.
    When we get the money from NHTSA to implement these 
programs, the States use a lot of creativity in being able to 
implement those programs within the bounds of the law. When 
there are sanctions available and money is withheld, it simply 
doesn't work, and it doesn't create a good environment----
    Ms. Norton. Well, let me ask you this, Mr. Poole. Are you 
familiar with the States who have enacted 21-age limits, 
drinking-age limits with .08 percent alcohol content? Are you 
familiar with the number of States who have done that?
    Mr. Poole. Yes, ma'am.
    Ms. Norton. How many?
    Mr. Poole. I believe .08, the number of States--I will get 
back to you on the exact number.
    Ms. Norton. Mr. Poole, it is every State.
    Mr. Poole. Right.
    Ms. Norton. It is every State.
    Mr. Poole. Right.
    Ms. Norton. Nobody wants to lose his funding. You have the 
incentive, of course, of losing lives. And so every State has 
done it.
    We are not even suggesting that funds would be taken away. 
The Government is reluctant to take away funds.
    Mr. Poole. Right.
    Ms. Norton. And usually engages in a great deal of back-
and-forth before any funds are ever taken away.
    But there is an instance where every State, given that 
possible sanction, did what the Congress wanted it to do. And I 
compare that with the weak sanctions here for distracted 
driving, including teen driving. Very, very worrisome.
    Are you aware of how many States had funds withheld as a 
result of this strong sanction?
    Mr. Poole. Are you talking about teen driving and 
distracted driving?
    Ms. Norton. Yes.
    Mr. Poole. We are very, very disappointed in the ability to 
get money out to the States in teen driving and distracted 
driving, because many States----
    Ms. Norton. No, I am talking about--I am simply--I am doing 
a kind of syllogism here. Every State enacted .08 for 21 and 
under.
    Mr. Poole. Correct.
    Ms. Norton. As a 21-year drinking age. My question--and it 
is a rhetorical one--is that no State, in order to get there, 
had its funds withheld. I am trying to make the case that if 
the Federal Government shows it means it, the sanction works. 
It doesn't have to withhold funds. If we engage in soft 
funding, we think we mean that, too. And they simply do not 
comply.
    And so, what you want us to do is, I take it, reduce the 
standards on this--under this soft--because they haven't 
complied. Although, the evidence we have is they comply when 
they are staring in the face of a harder sanction. Now, we can 
talk about how hard it should be. But the evidence seems to be 
the reverse of what you are suggesting, that soft sanctions 
don't exactly encourage compliance, hard sanctions do, and they 
do so without taking one red cent from the State.
    Given what is at stake--here, it is teen driving--why 
should we not tell the States, ``Hey, we mean what we said in 
MAP-21, and your funds are at stake''?
    Mr. Poole. Your point is very well taken, and GHSA will re-
examine those positions.
    Ms. Norton. I would appreciate that. I would just ask you 
to re-examine it in light of--I don't know if you opposed, for 
example, the blood alcohol sanction. All I can say is it was 
effective.
    And I do want to ask Mr. Hart. Do you support--does the 
NTSB support the present MAP-21 approach?
    Mr. Hart. With respect to the blood alcohol in particular, 
and specifically, we have recommended a reduction from .08 to 
.05.
    Ms. Norton. Would you support changing the standards to 
allow more States to qualify, as Mr. Poole, as least initially, 
believes? Or do you believe the standards that we set for 
distracted driving in MAP-21 under these programs are the 
targets that we should continue to have States meet?
    Mr. Hart. I will provide information for the record 
regarding NTSB views on the specific distracted driving 
standards within MAP-21. As a general matter, our 
recommendations are not prescriptive as to how to accomplish 
them.
    Ms. Norton. I wish you would get back to us on whether you 
support what was in MAP-21 on the standards.
    Mr. Hart. I will provide that information to the committee.
    Ms. Norton. For distracted driving.
    Mr. Hart. Yes.
    [The information follows:]

        Distracted Driving and Graduated Drivers Licenses (GDL) in
        MAP-21

        The NTSB has seen numerous highway crashes and accidents in all 
        modes involving distraction. Because of this continuing 
        epidemic, the NTSB has taken a strong stance on distraction 
        behind the wheel. The NTSB supports the program established by 
        Congress in Moving Ahead for Progress in the 21st Century (MAP-
        21) Act, to reduce the dangers of distracted driving associated 
        with the use of personal communication devices. The requirement 
        that States have primary laws that address texting and youth 
        cell phone prohibitions is in line with NTSB recommendations. 
        The NTSB has also called for a complete ban on the use of 
        personal electronic devices that are not germane to the driving 
        task, and we hope that States will enact this recommendation as 
        well. Further, removing the exemption for States that allow 
        commercial vehicle drivers to use their devices for business 
        purposes would further improve State laws and support NTSB 
        findings and recommendations from commercial vehicle accidents 
        involving distraction.

        Graduated drivers' licenses (GDL) refer to multistage licensing 
        systems requiring novice drivers younger than 21 years of age 
        to comply with a set of minimum requirements before being 
        eligible to receive an unrestricted driver's license. GDL 
        requirements help ensure our youngest drivers receive proper 
        training, and the NTSB has recommended these types of licenses 
        for over 10 years. The NTSB has called for a learner's permit 
        stage and an intermediate stage, and MAP-21 reflects these 
        recommendations. MAP-21 also provides that driver training 
        should be part of the licensing process, and the NTSB has 
        recommended that National Highway Traffic Safety Administration 
        (NHTSA) and the Department of Education determine the most 
        effective instructional tools, training methods, curricula, and 
        sequencing in providing this class. One area not addressed is 
        that NHTSA should evaluate this grant program to ensure that 
        States are using the grants effectively to improve their GDL 
        program. Performance-based measures can provide valuable 
        information for other States considering such programs.

        Monitoring the implementation of these laws and how these 
        grants are used can produce valuable data as we work together 
        to reduce the injuries and fatalities on our roads. The NTSB 
        believes that a data-driven approach that incorporates 
        specific, ambitious, and measurable goals, as well as 
        continuous monitoring of the effectiveness of countermeasures, 
        can provide the best information for policymakers as you review 
        these programs.

    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Petri. Thank you. Mr. Coble?
    Mr. Coble. Thank you, Mr. Chairman. Good to have the panel 
with us. Mr. Chairman, I had a judiciary hearing earlier, and I 
apologize for my delay here.
    Let me plow new ground, gentlemen, regarding safety. Now, 
DUI violations have plagued us for years and years, and 
continue to plague us. Do you anticipate any impediments or 
difficulty in detecting influence of marijuana? It is more and 
more--it increased, I am told. Will that pose a problem, as 
far--an additional problem, as far as safety on the highways 
are concerned?
    Mr. Poole. I will be glad to answer that. Thank you, Mr. 
Coble. Drugged driving is actually a huge part of our platform 
in GHSA. Impaired driving used to just mean alcohol, and that 
is not the case any more. Whether it is simply prescription 
drugs or whether it is illegal narcotics, many of our States 
across the country have utilized Federal funding to train drug 
recognition experts who are able to assist police officers. 
They receive 2-week training, very extensive training, to make 
sure that we get those impaired drivers off the roads as well. 
Because, as you well know, 33 percent of our total fatalities 
are alcohol-related, nationwide. And impaired is inclusive of 
drugged driving.
    Mr. Coble. I thank you for that. Anybody want to add 
further to that?
    [No response.]
    Mr. Coble. I have never enrolled in the marijuana 
consumption school, so I bring no personal experience to the 
table, but I can see that that may open another door directly 
relating to highway safety. Thank you. Thank you, Mr. Chairman.
    Mr. Petri. Thank you. Mr. Sires?
    Mr. Sires. Thank you, Mr. Chairman, for holding this 
hearing, and thank you, all of you, for being here today.
    I want to bring it down to a little different--something 
that is all around me. In 2012, bicyclists, pedestrians, and 
motorcyclists made up about 30 percent of all traffic deaths. 
That, to me, extremely high. As I drive around Washington, I 
see everybody with the bicycles. I see kids--well, I call them 
kids; they are young people--with babies sometimes sitting in 
the back of their--slipping through.
    I think that this is only going to increase. I mean 30 
percent of all traffic deaths are related to this. How can we 
improve those numbers without--there is a trend now for 
everybody to use bicycles or walking, and so forth. We need to 
focus more money on training people to be more careful. Yes, we 
only, I think, allocated one percent of the money for safety.
    Can you give me some idea as to what we can do? Because I--
this is a trend that, I think, is going nationwide. Most people 
are using bicycles or most people are walking. I would just 
like to start with you, Dr. Sweatman.
    Dr. Sweatman. Thank you very much. Certainly. I mentioned 
in my testimony that in our connected vehicle environment, 
which is aimed squarely at safety in Ann Arbor, we already have 
motorcycles involved in that. We have bicycles involved in 
that. And the exciting breakthrough that we see coming is that 
through the use of smartphone technology, pedestrians can be 
brought into that picture, as well. So vehicles are going to 
know where pedestrians are, because of the signals that are 
coming from their smartphones.
    So, we believe that that kind of communication and that 
kind of information being exchanged will have a major impact. 
And certainly in a place like Ann Arbor, a college town where 
we have a lot of pedestrian problems, that is something that 
the university and the city of Ann Arbor is very excited about. 
So our connected vehicle technology is not just about cars, and 
we really want to emphasize that. So our vision is to include 
the motorcyclists, the bicyclists, and the pedestrians, so that 
every actor out on the roadway is connected.
    Mr. Sires. And I also think it is where there are no hands 
on the handle and they are texting as they--I have seen that, 
also. So that scares me, also.
    Mr. Hart, you delivered in 1994 the national bicycle and 
the walking study to Congress. If you--you did that, where you 
set some guidelines for safety.
    Mr. Hart. I will review our safety reports on whether we 
have examined pedestrian and cyclist accidents.
    Mr. Sires. Because I have seen that, you know, it was 
reducing bicycling and walking fatalities by 10 percent, some 
of the guidelines that you put forth. I was just wondering if 
you were to put out some more guidelines, or you are going to 
continue to promote those guidelines for safety of bicyclists 
and pedestrians.
    Mr. Hart. I would say in the broader sense that we are 
addressing the multifaceted approaches that try to reduce 
accidents in general, impaired driving, distracted driving, 
fatigue, some technologies--as you have heard, we are pursuing 
all of the above that would also have, hopefully, a positive 
impact regarding bicycle and pedestrian fatalities.
    Mr. Sires. What can we do, as--would you like--oh, OK. What 
can we do, as congresspeople, to enhance safety for pedestrians 
and bicyclists and people who--you know, who have different 
modes of moving around?
    Mr. Hart. Let me review the NTSB's reports to determine if 
we have made recommendations on that topic.
    Mr. Sires. It is a good report. My staff told me that.
    Mr. Hart. I will provide information to the committee on 
any NTSB report on that topic.
    Mr. Sires. I am sorry. Mr. Danko?
    Mr. Danko. I would just like to say that our association, 
the American Traffic Safety Services Association, has published 
guidelines on bicyclists and motorcycle safety, and we would 
like to get that to you in the near future.
    Mr. Sires. I also see now those two-wheelers that people 
have, you know, Washington, DC, people moving around. I don't 
know. What do they call those? I see police officers in the----
    Mr. Danko. Segways?
    Mr. Sires. Segways, yes. OK. Thank you very much.
    Mr. Petri. Mr. Ribble?
    Mr. Ribble. Thank you, Mr. Chairman. Mr. Danko, I come from 
northern Wisconsin, where we have a lot of rural roads. And 
when you look at the data, safety on rural roadways, it seems 
like fatalities occur at a higher rate. Can you talk to us a 
little bit about what some of the main contributors are for 
that? It would seem to me that would be the opposite, that we 
have high traffic volume and high urban areas would be more 
dangerous. Can you talk a little bit about that?
    Mr. Danko. Yes, sir. We have seen the statistic that rural 
roads have two-and-a-half times the fatality rate as a urban 
road. And a lot of the factors are--a number of them. One is 
speed on a rural road. There tends to be more speeding on that 
type of a highway. There is less lighting on rural roads. There 
is less ambient lighting on rural roads. There are more--
tending to be hilly, curvy, narrower. Now I am not talking 
about the travel lanes narrow itself, but the shoulder tends to 
be narrower, and sometimes substandard, so if you get off the 
roadway it will--it--there is less forgiveness. And the EMS 
response time is typically longer.
    Mr. Ribble. It seems that some of the things you mentioned 
are really out of control. Hills, curves, things like that, you 
are often going through woods or over--or through very hilly 
terrain or farm terrain. But there are some things that could 
be done on infrastructure. You mentioned lighting, the 
narrowness of roads, things like that. Do you have any comments 
in regard to that?
    Mr. Danko. Yes. We would say that maybe more edge lines 
that would alert the driver that they are now getting out of 
the travel land. A center line rumble strip can do the same 
kind of thing. Wider lines so you can see them a little bit 
more. Chevrons in the curves can help you--direct you to where 
the curve is actually going at the time, so that it kind of 
leads you through the curve. You can get into pavement markers 
that help, you know, delineate the same kind of a situation. 
And then you can go to a high-friction surface on curves that 
will then hold the tires a little bit better as they go around.
    Mr. Ribble. OK. Thank you very much. Sgt. Fuller--I am over 
here, way to your left--by means of full disclosure, I am a 
motorcycle rider, and actually, I would even define myself as a 
motorcycle enthusiast. I have a motorcycle here, in town, and I 
also have one back in Wisconsin. And I enjoy riding. And I 
understand that New York State uses section 402 funds to pay 
for motorcycle-only checkpoints. Is that accurate?
    Mr. Fuller. I believe so, but I am not sure. That does not 
fall under my program.
    Mr. Ribble. OK. Just along the lines--since you are a State 
patrolman, and we talk about motorcycle safety, do you think 
that safety funds could be better spent towards strategies that 
would prevent motorcycle crashes, as opposed to maybe doing 
checkpoints?
    Mr. Fuller. I am always for less accidents, because less 
accidents save lives, injuries. How the money is spent, again, 
does not fall underneath my program. There is a separate 
section of the New York State Police traffic section that 
handles motorcycle safety, and it would fall underneath their 
jurisdiction, not mine.
    Mr. Ribble. Yes, and I would agree. I can tell you, as a 
motorcycle rider, I have always viewed motorcycle riding as a 
relatively safe activity. Motorcycle crashing is another thing. 
And so I have a tendency to pay really close attention to crash 
avoidance, and being aware of what is around me. And I am not 
sure that an arbitrary checkpoint does much to enhance that 
training, or make me a safer driver. So I was just curious on 
your opinion, as a police officer. And, by the way, I 
appreciate your service in the State patrol.
    Mr. Fuller. Thank you very much.
    Mr. Ribble. Thank you. And, Mr. Danko, I want to come back 
just to you on an infrastructure issue again. We talked a 
little bit earlier here in the testimony on distracted driving. 
Are there infrastructure things that can be done to mitigate or 
minimize distracted driving, or is that just solely in the 
purview of the driver himself?
    Mr. Danko. There are those things that we--I mentioned 
earlier. Again, if you are distracted and you are leaving your 
lane of travel, an edge line rumble strip, a center line rumble 
strip, they have audible lines, thermoplastic-type lines that 
can be installed. That gives you the verbal sound of hitting 
the rumble strip, catches your attention, and you also feel the 
vibration in your vehicle. Those are probably trying to get 
your attention back when it is--you are, you know, dealing with 
people trying to text and whatever else they do.
    I don't do it, myself. I am not--I am of that age that I 
kind of missed that. But the kids today, that is normal, 
everyday. How you do it? That is going to be a real challenge 
for all of us, going forward.
    Mr. Ribble. Right. Thank you very much. Thank you, Mr. 
Chairman. I yield back.
    Mr. Petri. Thank you. Mr. Nolan?
    [No response.]
    Mr. Petri. No questions? Then Ms. Hahn?
    Ms. Hahn. Thank you, Mr. Chairman. I have too enjoyed the 
testimony today. I have learned a lot. Of course, we all know 
that women are the best drivers in the country. So, short of 
barring all men from the road, we are looking at how we make 
our roads safer and this committee is trying to look at how our 
safety grants are allocated to achieve that goal.
    It has been interesting to listen to the testimony about 
distracted drivers, impaired drivers, and the move towards more 
technology, as Dr. Sweatman talked about. I am wondering. It is 
such an interesting concept, but I would like to hear some of 
your views on whether or not we should focus more on funding 
emerging technology to remove that human element from driving.
    Particularly, I didn't hear anybody talk about the concept 
of driverless vehicles. Is that a direction that we ought to be 
taking seriously? Is that really a concept that we could see in 
our lifetime? And is that where Congress should look to start 
spending our dollars to really get to a place, whether it is 
the connecting highways, where trucks and cars are speaking to 
each other, versus just, frankly, taking the human element all 
together out of driving and focusing on the driverless cars? I 
would like to hear Honorable Hart, Mr. Poole, Dr. Sweatman, and 
others on that concept.
    Dr. Sweatman. I would be happy to start off. Absolutely. We 
have various levels of automation with us already. And we are 
going to be stepping through various levels of taking the 
driver out of the loop. That is an interesting process to 
contemplate, because we are going to have partially or fully 
automated vehicles out there mixing in with conventionally 
driven vehicles. We are going to have issues to do with 
recalling drivers' attention. So if they are in a partially 
automated vehicle, and then some situation arises where they 
have to take over control, it is almost the opposite of the 
distraction problem we have at the moment, where drivers are 
supposed to be driving, but in fact, a lot of the time they are 
doing something else.
    In the future, we are going to be--they are not supposed to 
be driving, but occasionally they are going to have to do 
something. So we are very involved in all of that research, in 
terms of how the human factors of that plays in. But, at the 
end of the day, the technology will prove to be a lot more 
reliable than the human driver. And, really, that is the big 
hope for solving a lot of these problems.
    We have been doing what we call naturalistic driving 
studies for many years, where we put a lot of--among other 
things, we put video cameras in vehicles for a period of a 
year, or something like that. And it is amazing what people do 
in vehicles. And, when it comes to distraction, there are 
various phases that people go through.
    So, 5 or 10 years ago, we would see a lot of people making 
cell phone calls, handheld cell phone calls, in vehicles. We 
hardly see that at all now; they are mainly texting. So, as the 
personal devices change, so the distraction changes, the source 
of distraction, and that is going to keep happening until we 
have enough automation in the system to take--to reduce the 
risk back down again. That is the way we would view it.
    Ms. Hahn. I used to drive from my home in San Pedro to 
downtown Los Angeles, where I went to--I worked at the City 
Hall, 26 miles. I one time, in the fast lane, followed a car 
where the driver was a guy, and he completely got dressed. It 
was a--I tried to get closer for a better look, but I was 
trying to keep my distance to be a safe driver. But, literally, 
put his shirt on, put his tie on, and then pulled out a razor 
and shaved.
    So, you are right. It is amazing what people do in their 
cars. Does anybody else want to comment on the driverless 
vehicle idea?
    Mr. Hart. We have not investigated driverless vehicle 
crashes. We do investigate many accidents involving automation 
and the failure of the human-machine interface. The Washington 
Metro accident here in 2009 was partly an automation accident. 
Automation can be wonderful and can improve safety, and 
efficiency, and reliability. But problems arise when it fails. 
It must be designed in a manner that does not lead to 
accidents.
    Ms. Hahn. You know, I am glad you brought up the Metrolink 
tragedy, because that--you know, that was such a tragedy. It 
happened not too far from my district. And so, we have talked 
about enacting positive train control. And I do know that 
Metrolink is on track to complete that in time.
    However, there have been some other organizations in this 
country that have kind of fought that a little bit, and have 
been asking for some extensions. What do you think--and I will 
end with this question--what do you think are the major 
impediments to us enacting positive train control? And is that 
something we should extend the deadline on, or should we really 
force those deadlines for a safer train experience for 
everyone?
    Mr. Hart. The Metro accident I referenced was in 
Washington, DC, but the NTSB did investigate the 2008 Metrolink 
accident too.
    Ms. Hahn. OK. I was thinking--I am thinking about 
Metrolink.
    Mr. Hart. That was certainly a tragic event. We have been 
recommending positive train control since at least the 1970s, 
and it has been on our Most Wanted List for most of that time. 
PTC makes up for human frailty. Redundancy is what it is all 
about. Humans make mistakes. Humans can be impaired; they can 
be distracted, and they can be fatigued. We are solidly behind 
positive train control.
    Ms. Hahn. OK, thanks.
    Mr. Petri. Mr. Barletta?
    Mr. Barletta. Thank you. And just for the record, Ms. Hahn, 
I am the father of four daughters, and my car insurance was 
$18,000 a year before the insurance company dropped us.
    [Laughter.]
    Ms. Hahn. They didn't even give them a chance.
    Mr. Barletta. My daughters hit people everywhere, 
everywhere.
    Mr. Nolan. Will the gentleman yield?
    Mr. Barletta. I would.
    Mr. Nolan. As the father of four, I will never forget when 
my daughter called and said, ``Dad, I got in an accident.'' And 
of course, I said, ``Are you OK, honey?'' And she said, ``No, I 
am fine.'' She said, ``I just wrecked the front end. Not the 
side that John wrecked, but the side that Leah wrecked.''
    [Laughter.]
    Mr. Barletta. Well, my daughter, Hurricane Grace, one time 
called me and said, ``Dad, I have bad news for you. I just 
rear-ended some lady at the mall. But don't worry, nobody is 
hurt, nobody is mad.'' I said, ``Really, Grace? I happen to be 
a little mad right now, but I am glad everyone there is OK with 
it.''
    [Laughter.]
    Mr. Barletta. Thank you for this very important hearing. I 
have two questions.
    One, Sgt. Fuller, during the consideration of H.R. 7, my 
amendment required the Department of Transportation to evaluate 
the safety of heavier and longer trucks. And this provision was 
included in the version that was signed into law. In their 
project plan and in public presentations, DOT has mentioned a 
joint data collection effort between The Commercial Vehicle 
Safety Alliance and The Federal Motor Carrier Safety 
Association that compares the out-of-state service violations 
for overweight trucks with trucks operating within the normal 
legal weight limits.
    Can you tell us what this effort has found so far?
    Mr. Fuller. The Size and Weight Committee of The Commercial 
Vehicle Safety Alliance has been gathering information over the 
last year or so. And I am not really sure of what the 
statistics are, as of right now.
    I have been informed that we can get you all that data you 
requested.
    Mr. Barletta. If you would, thank you very much, I would 
appreciate that.
    Mr. Fuller. My pleasure, sir.
    Mr. Barletta. Mr. Danko, I grew up in the road construction 
business, and I started a line-painting company, so I come from 
your industry. And I know firsthand the benefits of 
infrastructure safety. We will never know the number of lives 
that we save; we never read the names in the paper the next day 
of the lives that were saved because of highly reflective 
markings, especially on a foggy day or a wintry day around the 
country. So I am very proud of the industry and the lives that 
have been saved.
    But I believe the Highway Safety Improvement Program, HSIP, 
is vital to the safety of our roadways. Could you elaborate on 
how HSIP can help prevent our Nation--prevent fatalities on our 
roadways?
    Mr. Danko. Yes, Congressman. We all recognize that there 
has been a significant decrease in crashes since 2006, about a 
22-percent reduction in fatalities. And so, we think the HSIP 
funding has gone a long way. But there is still a long way to 
go. There is still 33,000-plus people dying annually on the 
roadway. So there are a lot of areas that need to be reviewed. 
There are dangerous stretches of highway. Most of the States 
have identified those areas. And they are in need of funds to 
correct them.
    There is a lot of interesting new technologies that have 
come out. One is a cable median barrier as being--catching on. 
And it helps eliminate crossover crashes on interstates and 
divided highways. And it is relatively inexpensive, compared to 
some of the other solutions that are out there.
    So there is a long way to go. We feel that there is--one of 
the other things that we would like to see is the private 
infrastructure people have a seat at the table when the next 
strategic highway safety plan is being done, because I think we 
can give a different perspective. And we have seen some States 
that have been reluctant to include our input.
    Mr. Barletta. Should we be considering not only extending 
the program, but increasing funding and ensuring that these 
funds are dedicated to saving lives on our roadways?
    Mr. Danko. Yes. That is what we have asked for. And that is 
in our report, is that we think it is critical. There is too 
much to go. We have always said that a penalty for making a 
mistake shouldn't be death.
    Mr. Barletta. I agree. I believe this program has a 
relatively low cost to the cost of a life. Thank you.
    Mr. Petri. Thank you. Mr. Michaud?
    Mr. Michaud. Thank you very much, Mr. Chairman. Yes, this 
question for Mr. Danko. I appreciate your testimony and ATSSA's 
work on the Toward Zero Deaths campaign. Can you tell us why 
focusing on local and rural road safety is so important?
    Mr. Danko. Yes. A couple of things. We have talked about 
the fatality rate being higher on the rural roads. A lot of 
them are in, you know, local jurisdiction that don't have 
access to a dedicated highway engineer to be able to go out and 
do a roadway safety audit and find the deficiencies. You know, 
we ask that the local people, the municipalities, be--get 
assistance from the States and be able to draw from the States' 
engineers to help do those audits and identify areas that can 
be improved.
    Mr. Michaud. Thank you. This question is for Dr. Sweatman. 
The--as you probably know, ITS America has given its Smart 
Solution Spotlight award to the Texas Permitting and Routing 
Optimizing System for oversized and overweight trucks. The 
system allows drivers of oversized loads to apply for a permit 
online and receive a customized route for the size and weight 
of the load. The routes avoid obstacles or bridges and pavement 
that could be damaged by the load, allowing truckers to operate 
in the safest and more efficient manner.
    My question is, if Congress allowed for changes in the size 
and weight limits to the extent necessary, do you see other 
States adopting systems similar to Texas, limiting heavier 
vehicles to specific road bridges or routes that are designed 
to handle those vehicles?
    Dr. Sweatman. Thank you, Congressman. Yes. So ITS America 
was very pleased to recognize this program maybe a year ago now 
with an award. And we followed up yesterday to see how things 
are going. Things are going extremely well with the program. 
And, in fact, it was launched this week in Kansas, as well. So 
it is already--other States are already starting to pick this 
up.
    So, just so everyone is clear, this is about oversized and 
overweight vehicles, permits for those vehicles. But the point 
of your question is, if it was considered that we would 
increase the productivity of heavy trucks, and particularly 
increase weight limits right across the board, across the 
country, how useful would this technology be. It would 
certainly be useful.
    The proposal, I believe, is for--to go to six-axle 
combinations, instead of predominantly five-axle. There are 
always some bridge considerations, bridge strength 
considerations that need to be taken into account. So this kind 
of online system, or this automated way of using technology to 
figure out where these vehicles could not go or should not go 
would be extremely useful.
    I would add that I believe this is part of the package of 
technology that we are overdue for deploying in the heavy truck 
industry. There are many beneficial safety technologies. You 
know, we have tested a few at UMTRI over the past few years 
where we see tremendous benefit. So--whether it is stability 
control systems, crash imminent braking systems.
    And so, what we need to do is, if we are going to have more 
productivity on all trucks, we need to raise the bar on safety 
at the same time, and make sure that that arrangement--that we 
get a good deal out of this. And so, the use of these online 
systems would certainly be part of that, as well as new 
technologies in the vehicles.
    Mr. Michaud. And part of that safety would be, like, going 
from a five-axle to a six-axle to deal with stoppage of the 
vehicle and distribution of the weight load on the tractor 
trailer. Is that correct?
    Dr. Sweatman. Well, I mean, the way it works out, when you 
go to a six-axle vehicle, the braking is actually greater 
because you end up with less load per axle. You have got more 
brakes and less load per axle, I should have said. So, all of 
those issues are taken into account.
    Mr. Michaud. Well, great. Thank you very much.
    Dr. Sweatman. Thank you.
    Mr. Michaud. And thank you very much, Mr. Chairman. I yield 
back the balance of my time.
    Mr. Petri. Thank you. Mr. Williams?
    Mr. Williams. Thank you, Mr. Chairman. I appreciate you 
all's testimony today, and I always like to hear about Texas, I 
am from Texas. So we like to hear the good things that we are 
doing there.
    My first question would be to you, Chairman Hart. Vehicle 
maintenance violations account for more than 70 percent of 
total violations with the compliance safety and accountability 
program. Yet, according to Federal Motor Carrier Safety 
Administration's own large truck and bus crash facts of 2011, 
fewer than 5 percent of all truck-involved fatality crashes saw 
a vehicle-related factor assigned to the truck in the crash. Is 
this focus on vehicle maintenance by law enforcement the best 
use, do you feel, of motor carrier safety assistance program 
funds, especially based on these figures, and the limitations 
of the trust funding that we have?
    Mr. Hart. Thank you for the question. Vehicle maintenance 
has been an issue for commercial motor vehicles, and we have 
made recommendations about it. Recently, for example, we 
investigated four commercial vehicle accidents in which the 
carriers passed a compliance review, and then had an accident. 
In the post-accident safety compliance review, they failed, and 
part of the failure related to maintenance. Maintenance has 
been a big issue for us, and we are pursuing it vigorously, 
because we think that vehicle maintenance continues to be a 
safety problem.
    Mr. Williams. Thank you. And I guess, Dr. Sweatman, I have 
got two questions for you. What role will technology play in 
increasing safety of our Nation's traveling public over the 
next 20 years? I am in the automobile business; I would like to 
hear that.
    Dr. Sweatman. Well, my answer to that would be a 
transformational role. We believe that we can get to a 
situation--I already mentioned that the connected vehicle 
programs we are working on have the potential for an 80-percent 
reduction in nonimpaired multivehicle crashes. That is 
tremendous. That is a tremendous benefit. When we mix in with 
that increasing automation at the same time--so those two are 
coming together--we have created a lot of excitement with the 
connected vehicles, now there is even more excitement about 
automated vehicles in the industry.
    What the automotive industry is doing with--I talked about 
the sensors being deployed in vehicles now, the intelligence 
that is being deployed in vehicles at a very reasonable cost. 
And we should bear in mind that the connected vehicle program 
was really predicated on being highly affordable, that this 
form of communication is affordable. And the sensors that we 
were adding to vehicles, the prices on those are coming down 
because we are getting the volume up.
    So, we are in a very exciting time. We are going to see a 
rapid rate of change. We have to be sure that the level of 
automation, as it increases, that it interacts well with human 
operators. And that issue has come up on the panel a couple of 
times, so we think that is important. But we think the future 
is very bright, especially--you mentioned a 20-year timeframe. 
We are going to be in a completely different world with our 
mobility system by then.
    Mr. Williams. Keeping those prices down is important. My 
next question to you--I am a private sector guy. We talked 
about the private sector today and the importance of it. How 
can Federal grant funding be better leveraged, in your mind, 
with the private sector funds to deploy what--these 
technologies we are talking about and intelligent 
transportation systems that go with it?
    Dr. Sweatman. I think this is critically important, and we 
are seeing, in the connected vehicle program, that this can be 
done very effectively. So the investment that the USDOT has 
made mainly with the industry, the automotive industry in 
Michigan, all working together--so we have had automakers 
working together for 10 years to develop this connected vehicle 
technology.
    So, by the time--the role for the Federal Government is to 
provide the funding to develop the overall system. What is the 
architecture? What are the basic standards that need to be 
applied? And once we have that, and once we have that certainty 
so that General Motors know that if they get a signal from a 
Toyota, they can rely--they know what that signal means. That 
signal is standardized. And that is what we call a basic safety 
message. That work is being done. It is being done under 
Federal funding. And now we are in a position where we will see 
rapid deployment, I believe, of this technology.
    Mr. Williams. Private-public is a good partnership.
    Dr. Sweatman. Absolutely.
    Mr. Williams. Thank you, Mr. Chairman. I yield back.
    Mr. Petri. Thank you. Mr. Davis?
    Mr. Davis. Thank you, Mr. Chairman. Thank you to this 
committee, too. Thank you for all who have gone through this 
hearing. This committee, I believe, is a committee that has 
showed true bipartisanship in addressing many issues that are 
important to the infrastructure of this Nation. I think you are 
going to see wide agreement on many of the proposals that we 
hope to come out of this committee room in the near future, 
like we have in the past, in regards to WRDA and others.
    I too agree with many on the panel and many in this room 
that we do need a longer term infrastructure bill that is going 
to address many of our infrastructure programs and safety 
programs in the long term, rather than a short term. And with 
that--I don't want to rehash much of what has already been 
asked. So I will go straight to some issues that I don't think 
have been addressed.
    You know, when I was a kid, it was always great to be able 
to get my mom and dad's permission to ride my bike to school 
the few days that they would let me. Obviously, they wouldn't 
have let me today in Illinois, with - 16 wind chill. But I know 
that in Illinois the Safe Routes to School program is helping 
to make those instances safer. Many of my urban areas in 
Champaign, Urbana, and Edwardsville, and other parts of central 
Illinois, they have implemented some of these safety measures 
by partnering with the State of Illinois to create safer routes 
to school.
    And I was wondering, Mr. Danko, if I could start with you. 
Can you comment on the usefulness of this Safe Routes to School 
program, and whether or not you have seen a decrease in traffic 
fatalities near schools since its implementation?
    Mr. Danko. I cannot speak to the fact of the decrease in 
fatalities and accidents. I can get you some information and 
come back for the record on that. But I don't have that 
available.
    But as an association, we do have a program that, you know, 
talks to that. And we think we have seen a couple of instances 
where we have done teen school kids doing assessments on safe 
routes to schools, and trying to get a sense of what they see, 
you know, from a user standpoint, versus a engineer or a DOT 
person. So--and we have seen some success in that. We have done 
a couple of pilot programs on that in a few of the places that 
we have been.
    Mr. Davis. Well, thank you. Mr. Hart, do you have any 
comments on maybe a decrease? Any statistics on decreasing 
traffic fatalities after projects have been implemented around 
schools nationwide?
    Mr. Hart. We don't have much experience with student 
transportation except as it relates to schoolbuses.
    Mr. Davis. OK. OK. Mr. Poole, thank you for what you do. 
Always enjoy working with our State department of 
transportation, and most of the time with our Governor's 
office.
    You know, this program was changed in MAP-21 somewhat. And 
I wanted to ask you. Do you see any more recommendations that 
you would have coming from the State to help us help you even 
more to implement more safety measures around schools?
    Mr. Poole. Around schools, and that is great. You know, we 
have been--if you recall, in MAP-21 we worked with NHTSA in 
codifying 15 different performance measures. And bicyclists 
were not one of them. And we are looking and working with NHTSA 
to codify one of those additional performance measures in a 
reauthorization.
    And I will give you an example. In Tennessee, the Safe 
Routes to Schools program is not implemented by my office, but 
we work very closely with the DOT, where they have a Safe 
Routes to Schools coordinator. It has been exceptionally 
successful in the State of Tennessee. I know that there are 
many communities that have benefitted from additional safety 
measures in and around schools, and it may not have even 
resulted in a fatality, but maybe a crash, or maybe an injury. 
And we have seen, in Tennessee, a growth in that program, and a 
reduction in injuries and fatalities.
    Mr. Davis. Great. Illinois seems to be working well, too. 
If any of the panelists have suggestions to this committee to 
make it easier for kids walking and riding to school, that is 
something that I think I am very--I know I am very interested 
in, in working with each of you to continue to make it easier 
for especially States like Tennessee and Illinois and others to 
actually access these safety programs as we move forward.
    So, thank you again for your testimony today. And, Mr. 
Chairman, I yield back the balance of my time, which is over.
    Mr. Petri. Six seconds. Mr. Mica?
    Mr. Mica. Thank you. And thank you for conducting this 
important hearing on highway safety, and seeing how effective 
the money that the Federal Government spends for safety. Staff 
is telling me we doubled safety money in MAP-21, and very 
pleased how--people go off the charts when you lose lives in 
different types of scenarios, and we were losing about 43,000 
people, I think, a year on the highways. That went down to 
33,000, I believe.
    Some of the improvements and some of this money can be used 
for simple things like--I found installing the medians, the 
guardrails, and keeping traffic separated especially--head-on 
collisions, that was an effective use of money.
    I got--I have got--a couple people got my attention 
recently. One truck executive in Florida got me aside and says, 
``You all got to stop doing that crap you are doing, pulling 
those people over and looking at those logs and all that. That 
is such a waste of money.'' He says, ``There is technology now. 
What are you guys doing in Washington? There is technology 
now''--they got some sort of technology he described to me that 
they--you can look at their eyes, just like a DUI test, and see 
if people are fatigued. He says we do--I think in the private 
sector he said, ``We have been doing this. We can do that. And 
you should get those drivers off. They are cooking the logs and 
that stuff can be thwarted by a 15-year-old.'' Who wants to 
respond?
    [No response.]
    Mr. Mica. How about the New York commercial guy? What do 
you think? Is there something out there we can do? Have you 
seen--is anyone aware of the technology I am talking about?
    Mr. Fuller. No, I am not.
    Mr. Mica. Well, we sure as hell need to find out, staff and 
others. But he is telling me that you can access, through the 
pupils, I guess, how fatigued they are.
    So, I just raise that to staff and others. I would like to 
find out. And if nobody here knows about it, I guess we are in 
big trouble. But he sure as hell did.
    Mr. Hart. May I comment on that, momentarily?
    Mr. Mica. Yes, very briefly.
    Mr. Hart. Yes. There are----
    Mr. Mica. Don't take too much of my time----
    Mr. Hart [continuing]. Some technologies aimed at detecting 
fatigue. One detects whether steering wheel motions are normal 
or indicative of fatigue.
    Mr. Mica. No, but this is, you know, stop them or--the 
sites, and--if we aren't giving money for research to do 
something like that, and that technology is available, shame on 
us. If you have ever seen a large commercial vehicle in a 
crash, and the results, it is something you don't even want to 
think about. And unfortunately, we have a lot of those.
    Someone else got my ear and said, ``What the hell are you 
people doing in Washington?'' Of course, you know, this 
administration is renowned for its pumping out rules. And they 
said, ``They just pumped out a rule that you only need the 
safety glass in the front windshield,'' and showed me the 
statistics: 1,000 people went out the side windows because you 
don't have the proper safety glass. A rule could be--I mean it 
could be set by rule or by a law. Anyone familiar with that? 
That's just 1,000 people killed with that.
    [No response.]
    Mr. Mica. No? OK. Well, I think you have to look at where 
we are losing people on the road. I mean life is--I am talking 
about lives. And you have got tens of thousands who are 
injured. What is the biggest thing we should be attacking in 
highway safety to save lives? Start right there, and each of 
you finish and tell me in 30 seconds or less. Well, you got 29. 
Go ahead.
    Mr. Hart. If someone is ejected out the window, that means 
that person was not wearing a seatbelt.
    Mr. Mica. Well, I thought of that, too, but they said--and 
I don't know how--you know, I didn't analyze all those cases, 
but they--the people who hit the windshield survived. That kept 
them in the car.
    But, again, my question was what safety improvement could 
we do to save the most lives. Quick. Mr. Hart?
    Mr. Hart. Yes. Again, the biggest single one has been 
seatbelts, followed closely by airbags.
    Mr. Mica. OK.
    Mr. Hart. Keep people restrained in the car.
    Mr. Mica. OK. Quick. Mr. Danko, what do you think?
    Mr. Danko. Brighter signs.
    Mr. Mica. Brighter signs?
    Mr. Danko. Bigger font, easier-to-read signs.
    Mr. Mica. Especially with the aging population 
demographics.
    Mr. Danko. Correct.
    Mr. Mica. Mr. Fuller?
    Mr. Fuller. Inspections on the motor carrier trucks going 
down the roads.
    Mr. Mica. More inspections?
    Mr. Fuller. More inspections.
    Mr. Mica. OK. Poole?
    Mr. Poole. Focusing on behavioral highway safety: impaired 
driving, seatbelts, speed, distracted driving.
    Mr. Mica. OK. And, finally, Mr.----
    Dr. Sweatman. Technologies that avoid crashes. May I 
reflect a little on the comment you made about fatigued truck 
drivers? We have seen that. We have done major studies of some 
of these technologies. And whether or not they are fatigued, 
whether or not the test would tell you they are fatigued, the 
next thing that happens is they start to run out of the lane. 
But if they have a lane departure warning system in that 
vehicle, that driver wakes up and corrects and goes back into 
the lane. So----
    Mr. Mica. Well, some of those things we have started to do 
in repaving and things of that sort.
    Dr. Sweatman. Yes. But it can be in the vehicle, or it 
could be on the highway, as well.
    Mr. Mica. Right, yes.
    Dr. Sweatman. But those things are very effective in 
dealing with that problem.
    Mr. Mica. OK.
    Dr. Sweatman. But the problem of figuring out whether 
someone is fatigued or sleepy, or whatever, is a little more 
complicated.
    Mr. Mica. Well, finally--and I am over my time--just ask 
the staff--Dan, and some of the others--check on that 
technology, and let's see if that merits further consideration. 
He was pretty adamant about it. Thank you.
    Mr. Petri. Thank you. Ms. Hahn, one more question.
    Ms. Hahn. Yes, thank you. One more. So this is for the 
Honorable Hart. So, at the average age of 43 years old, the 
typical U.S. bridge is nearing the end of its 50-year design 
life, and thousands are far older than that. Structurally 
deficient bridges are more than 20 years older, on an average. 
And although we have nearly 70,000 structurally deficient 
bridges, and almost half of our highways are rated below good 
condition, MAP-21 eliminated the former highway bridge program 
which distributed Federal money specifically for bridge repair.
    I introduced a bill earlier in Congress that would 
authorize DOT to provide grants to States to repair or replace 
bridges the Federal Highway Administration has found to be 
structurally deficient. So, with the I-5 bridge being the 
second collapse of an interstate bridge in 6 years, I think we 
should be devoting even more dedicated funding towards 
maintaining our roads and bridges, not less. And while MAP-21 
requires that States develop performance standards for the 
bridges, it does not make the determination as to which bridges 
should benefit from Federal funding.
    So, as this committee is focusing on developing a new 
highway reauthorization bill, how can we ensure that we are 
allocating resources in a way that targets our Nation's most 
vulnerable bridges? I don't care what mode of transportation 
you are talking about, there--our bridges are really in 
disrepair. And it worries me a lot that--the kinds of lives 
that would be lost and the disruption of everything from cargo 
movement to just regular commuter traffic that would be 
disrupted if our--if a bridge collapsed.
    So, how can we do a better job in that respect, Mr. Hart?
    Mr. Hart. Aging infrastructure has been a concern for us. 
Not only bridges but also other infrastructure can be 
problematic without the prescribed inspections and maintenance.
    Ms. Hahn. You have any suggestions on how we might do 
better as this--I mean this is what this hearing is about, is, 
you know, how do we improve our allocation of these safety 
grants.
    Mr. Hart. I will submit the NTSB's recommendations on 
infrastructure to the committee for the record.
    [The information follows:]

        Aging Infrastructure Recommendations

        Accident Date:    07/10/2006
        Accident No.:      HWY08MH024
        Boston, MA, Accident Synopsis:
        About 11:01 p.m. eastern daylight time on Monday, July 10, 
        2006, a 1991 Buick passenger car occupied by a 46-year-old 
        driver and his 38-year-old wife was traveling eastbound in the 
        Interstate 90 (I-90) connector tunnel in Boston, Massachusetts, 
        en route to Logan International Airport. As the car approached 
        the end of the I-90 connector tunnel, a section of the tunnel's 
        suspended concrete ceiling became detached from the tunnel roof 
        and fell onto the vehicle. Concrete panels from the ceiling 
        crushed the right side of the vehicle roof as the car came to 
        rest against the north wall of the tunnel. A total of about 26 
        tons of concrete and associated suspension hardware fell onto 
        the vehicle and the roadway. The driver's wife, occupying the 
        right-front seat, was fatally injured; the driver was able to 
        escape with minor injuries.

        Recommendations:
        <bullet>  Rec #: H-07-017
        NTSB Status: Open--Acceptable Response
        TO THE FEDERAL HIGHWAY ADMINISTRATION: Seek legislation 
        authorizing the Federal Highway Administration to establish a 
        mandatory tunnel inspection program similar to the National 
        Bridge Inspection Program.

        <bullet>  Rec #: H-07-018
        NTSB Status: Open--Acceptable Response
        TO THE FEDERAL HIGHWAY ADMINISTRATION: Once provided with 
        legislative authority to establish a mandatory tunnel 
        inspection program as indicated in Safety Recommendation H-07-
        17, develop and implement a tunnel inspection program that will 
        identity critical inspection elements and specify an 
        appropriate inspection frequency.

        <bullet>  Rec #: H-07-015
        NTSB Status: Closed--Acceptable Action
        TO THE FEDERAL HIGHWAY ADMINISTRATION: In cooperation with the 
        American Association of State Highway and Transportation 
        Officials, develop standards and protocols for the testing of 
        adhesive anchors to be used in sustained tensile-load overhead 
        highway applications. These standards and protocols should 
        consider site-specific ultimate strength values as well as the 
        creep characteristics of the adhesive over the expected life of 
        the structure.
        The companion recommendation to AASHTO is H-07-020 which is 
        also Closed--Acceptable Action.

        Accident Date:    08/01/2007
        Accident No.:      HWY07MH024
        Minneapolis, MN, Accident Synopsis:
        About 6:05 p.m. central daylight time on Wednesday, August 1, 
        2007, the eight-lane, 1,907-foot-long I-35W highway bridge over 
        the Mississippi River in Minneapolis, Minnesota, experienced a 
        catastrophic failure in the main span of the deck truss. As a 
        result, 1,000 feet of the deck truss collapsed, with about 456 
        feet of the main span falling 108 feet into the 15-foot-deep 
        river. A total of 111 vehicles were on the portion of the 
        bridge that collapsed. Of these, 17 were recovered from the 
        water. As a result of the bridge collapse, 13 people died, and 
        145 people were injured.

        Recommendations:
        <bullet>  Rec #: H-08-001
        NTSB Status: Closed--Acceptable Alternate Action
        Issue date: 1/15/2008
        TO THE FEDERAL HIGHWAY ADMINISTRATION: For all non-load-path-
        redundant steel truss bridges within the National Bridge 
        Inventory, require that bridge owners conduct load capacity 
        calculations to verify that the stress levels in all structural 
        elements, including gusset plates, remain within applicable 
        requirements whenever planned modifications or operational 
        changes may significantly increase stresses.

        <bullet>  Rec #: H-08-018
        NTSB Status: Closed--Acceptable Action
        TO THE FEDERAL HIGHWAY ADMINISTRATION: Require that bridge 
        owners assess the truss bridges in their inventories to 
        identify locations where visual inspections may not detect 
        gusset plate corrosion and where, therefore, appropriate 
        nondestructive evaluation technologies should be used to assess 
        gusset plate condition.

        <bullet>  Rec #: H-08-019
        NTSB Status: Closed--Acceptable Action
        TO THE FEDERAL HIGHWAY ADMINISTRATION: Modify the approved 
        bridge inspector training as follows: (1) update the National 
        Highway Institute training courses to address inspection 
        techniques and conditions specific to gusset plates, 
        emphasizing issues associated with gusset plate distortion as 
        well as the use of nondestructive evaluation at locations where 
        visual inspections may be inadequate to assess and quantify 
        such conditions as section loss due to corrosion; and, (2) at a 
        minimum, include revisions to reference material, such as the 
        Bridge Inspector's Reference Manual, and address any newly 
        developed gusset plate condition ratings in the American 
        Association of State Highway and Transportation Officials 
        commonly recognized (CoRe) structural elements.

        <bullet>  Rec #: H-08-022
        NTSB Status: Closed--Acceptable Action
        TO THE AMERICAN ASSOCIATION OF STATE HIGHWAY AND TRANSPORTATION 
        OFFICIALS: Modify the guidance and procedures in your Manual 
        for Bridge Evaluation to include evaluating the capacity of 
        gusset plates as part of the load rating calculations performed 
        for non-load-path-redundant steel truss bridges.

        <bullet>  Rec #: H-08-024
        NTSB Status: Closed--Acceptable Action
        TO THE AMERICAN ASSOCIATION OF STATE HIGHWAY AND TRANSPORTATION 
        OFFICIALS: Develop specifications and guidelines for use by 
        bridge owners to ensure that construction loads and stockpiled 
        raw materials placed on a structure during construction or 
        maintenance projects do not overload the structural members or 
        their connections.

        <bullet>  Rec #: H-08-025
        NTSB Status: Closed--Acceptable Action
        TO THE AMERICAN ASSOCIATION OF STATE HIGHWAY AND TRANSPORTATION 
        OFFICIALS: Include gusset plates as a commonly recognized 
        structural element (CoRe) and develop guidance for bridge 
        owners in tracking and responding to potentially damaging 
        conditions in gusset plates, such as corrosion and distortion; 
        and revise the AASHTO Guide for Commonly Recognized (CoRe) 
        Structural Elements to incorporate this new information.

        Accident Date:    08/10/2008
        Accident No.:      HWY08FH023
        Annapolis, MD, Accident Synopsis:
        On August 10, 2008, at 3:55 a.m., the driver of a tractor-
        trailer took evasive action to avoid a Chevrolet Camaro 
        passenger vehicle that had departed its travel lane on the 
        William Preston Lane, Jr., Memorial Bridge (Chesapeake Bay 
        Bridge) near Annapolis, Maryland. The Camaro struck the 
        tractor-trailer and rotated 180 degrees but remained on the 
        bridge; the tractor-trailer, traveling at a police-reported 
        speed of more than 40 mph, crossed to the opposite side of the 
        bridge, striking the bridge barrier at a 40-degree angle and 
        departing the bridge. The tractor-trailer's impact to the 
        bridge railing caused an approximately 24-foot length of the 
        barrier to dislodge and a 12-foot length of the displaced 
        barrier to completely separate and fall into the Chesapeake 
        Bay. The driver of the commercial vehicle was killed; the 
        driver of the Camaro sustained serious injuries and the 
        Camaro's passenger sustained minor injuries; and the driver and 
        passenger of a third vehicle, a Toyota Prius that was struck by 
        the trailer, were uninjured.

        Recommendations:
        <bullet>  Rec #: H-10-017
        NTSB Status: Closed--Acceptable Action
        TO THE FEDERAL HIGHWAY ADMINISTRATION: Inform State departments 
        of transportation of the risks of steel reinforcement corrosion 
        and voids in concrete barriers and barrier attachment points 
        and of the nondestructive evaluation methods used by the 
        Maryland Transportation Authority to identify internal 
        corrosion problems.

        <bullet>  Rec #: H-10-018
        NTSB Status: Closed--Acceptable Action
        TO THE FEDERAL HIGHWAY ADMINISTRATION: Expand the research and 
        development of nondestructive evaluation technologies to 
        develop bridge inspection methods that augment visual 
        inspections; offer reliable measurement techniques; and are 
        practical, both in terms of time and cost, for field inspection 
        work; and promote the use of these technologies by bridge 
        owners.

    Ms. Hahn. Thank you. Thank you for allowing me another 
question.
    Mr. Petri. Thank you. Thank you all for your testimony and 
response to questions. It has been a very interesting hearing.
    I would ask unanimous consent that letters or statements 
from the American Bus Association and the American Motorcyclist 
Association be incorporated in the record of this hearing, and 
ask unanimous consent that the record of today's hearing remain 
open until such time as our witnesses have provided answers to 
any questions that may be submitted to them in writing, and 
unanimous consent that the record remain open for 15 days for 
additional comments and information submitted by Members or 
witnesses to be included in the record of today's hearing.
    Is there any objection to any of those requests?
    [No response.]
    Mr. Petri. Hearing none, without objection, so ordered.
    [The information submitted by Mr. Petri for the record 
follows:]

[GRAPHIC] [TIFF OMITTED] T6439.005

[GRAPHIC] [TIFF OMITTED] T6439.006

[GRAPHIC] [TIFF OMITTED] T6439.007

[GRAPHIC] [TIFF OMITTED] T6439.008

    Mr. Petri. And this subcommittee hearing is adjourned.
    [Whereupon, at 11:46 a.m., the subcommittee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
